No. 20-853
IN THE

Supreme Court of the United States
ANDREW HIRSHFELD, PERFORMING THE FUNCTIONS AND DUTIES OF
THE UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE
Petitioner,
v.
FALL LINE PATENTS, LLC, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Thomas G. Sprankling, a member
of the bar of this Court, certify that the accompanying Respondent Apple Inc.’s
Response in support of the Petition for Writ of Certiorari contains 595 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on January 27, 2021.

THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
Thomas.Sprankling@wilmerhale.com

